November 30, 2020
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

City of Fairbanks, Alaska, et al. v. Marvin Roberts, et al., No. 20-711

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
20, 2020, and placed on the docket on November 23, 2020. Our clients’ brief in opposition is
due on December 23, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of 30
days to and including January 22, 2020, within which to file our clients’ brief in opposition.
This extension is requested to allow sufficient time to prepare a response given the
restrictions of the COVID-19 pandemic and to attend to pre-existing filing deadlines in other
matters. The offices of respondent’s counsel are closed to normal operations and counsel are
primarily working from their homes, making it more difficult to coordinate between law firms on
preparing the brief.
Sincerely,
/s/Anna Benvenutti Hoffmann
Anna Benvenutti Hoffmann

cc:

Joseph W. Evans
Matthew Singer

1

IN THE SUPREME COURT OF THE UNITED STATES
No. 20-711
City of Fairbanks, James Geier, Clifford Aaron Ring, Chris Nolan and Dave Kendrick,
Petitioners,
v.
Marvin Roberts, George Frese, Kevin Pease and Eugene Vent,
Respondents.
CERTIFICATE OF SERVICE
I, Anna Benvenutti Hoffmann, counsel for Marvin Roberts and Eugene Vent, hereby certify
that on November 30, 2020, all parties required to be served have been served a copy of the Letter
Requesting an Extension to Reply via USPS First-Class Mail and electronically.
Mike Kramer
Reilly Cosgrove
Kramer and Associates
542 4th Avenue, Suite 207
Fairbanks, AK 99701
907-888-4098
mike@mikekramerlaw.com
reilly@mikekramerlaw.com

Matthew Singer
Peter A. Scully
Schwabe, Williamson & Wyatt
420 L Street, Suite 400
Anchorage, AK 99501
907-339-7129
msinger@schwabe.com
pscully@schwabe.com

Counsel for Respondents Roberts and Vent

Counsel for Petitioner City of Fairbanks

Jeffrey Taren
Tiffany Cartwright
Macdonald, Hoague & Bayless
1500 Hoge Building
705 Second Avenue
Seattle, WA 98104
312-663-5210
jeffreyt@mhb.com
tiffanyc@mhb.com

Joseph W. Evans
Law Offices of Joseph W. Evans
PO Box 519
Bremerton, WA 98310-0241
360-782-2418
joe@jwevanslaw.com
Counsel for Petitioners Geier, Ring, Nolan, and
Kendrick

Thomas R. Wickwire
2775 Hanson Road, Suite 1
Fairbanks, AK 99709
907-474-0068
tom@twickwire.com
Counsel for Respondents Pease and Frese

2

Respectfully submitted,
/s/Anna Benvenutti Hoffmann
Anna Benvenutti Hoffmann
Counsel for Respondents Roberts and Vent

3

